TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 The Information Technology Organization
                Needs to Implement a Competency Database
                    to Efficiently Manage Its Workforce



                                      September 21, 2012

                              Reference Number: 2012-20-107




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                  HIGHLIGHTS


THE INFORMATION TECHNOLOGY                            various occupations. Without a competency
ORGANIZATION NEEDS TO IMPLEMENT                       database, management cannot efficiently and
A COMPETENCY DATABASE TO                              effectively manage the skills of its workforce.
EFFICIENTLY MANAGE ITS                                The IRS Human Capital Office developed,
WORKFORCE                                             tested, and successfully implemented an
                                                      automated tool that would help with assessing
                                                      the skills and competencies and readily link that
Highlights                                            information with training. TIGTA believes that
                                                      the IRS IT organization should implement this
Final Report issued on                                tool to help with its overall skills management.
September 21, 2012                                    The IRS IT organization will benefit from using
                                                      the automated assessment tool because it will
Highlights of Reference Number: 2012-20-107           reduce management’s burden, it is a
to the Internal Revenue Service Chief                 cost-efficient means for identifying skills gaps,
Technology Officer.                                   and it allows for quick and easy access to
                                                      employee data for development and training
IMPACT ON TAXPAYERS                                   purposes.
The IRS Information Technology (IT)                   WHAT TIGTA RECOMMENDED
organization partners with leadership to define
and implement human capital policy and                TIGTA recommended that the Chief Technology
guidance that ensures employees are supported         Officer 1) develop an inventory list of the key (or
to deliver outstanding service. Without effective     important) skills needed for each IT position and
human capital management, which includes              differentiate the skills by proficiency level, and
determining the critical skills and competencies      2) implement a repeatable process for assessing
that will be needed to deliver IT services, the       employees’ skills. In addition, the IRS IT
IRS IT organization risks being unable to             organization should consider using the
effectively and efficiently achieve its mission of    Assess 4 Success process and tools developed
delivering services and solutions that drive          by the IRS Human Capital Office.
effective tax administration.                         IRS management agreed with the
WHY TIGTA DID THE AUDIT                               recommendations and is in the process of
                                                      developing an IT Workforce Tool that will gather
This audit is included in TIGTA’s Fiscal              technical competencies, skills, and areas of
Year 2012 Annual Audit Plan and addresses the         expertise, with proficiency-level ratings from the
major management challenge of Human Capital.          results of each employee self-assessment.
The overall objective of this review was to           Management plans to use this IT Workforce Tool
evaluate the IRS IT organization’s workforce          for employee self-assessments and ongoing gap
planning efforts to ensure that it has the human      analysis to meet its strategic planning
capital needed to deliver IT services and             objectives. They considered the Assess 4
solutions that drive effective tax administration.    Success tool; however, it lacked some of the
                                                      assessment information and analysis
WHAT TIGTA FOUND                                      capabilities that the new system will offer. The
Although the IRS IT organization has a process        IT Workforce Tool, along with the IRS’s IT
for identifying its resource needs and gaps for       Integrated Release Plan, will provide expanded
completing its priority work, the process relies on   skills information by critical program areas
management’s knowledge and judgment about             related to the future demand and detailed gap
each individual’s skills and does not consider        analysis assessments.
resource needs for other mission-related work.
Additionally, there is no system within the IRS IT
organization that provides information about the
skills and competencies associated with the
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 21, 2012


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                        Michael E. McKenney
                              Acting Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Information Technology Organization Needs
                              to Implement a Competency Database to Efficiently Manage Its
                              Workforce (Audit # 201220017)

 This report presents the results of our review of the Internal Revenue Service Information
 Technology organization’s1 workforce planning efforts to ensure that it has the human capital
 needed to deliver information technology services and solutions that drive effective tax
 administration. This audit is included in the Treasury Inspector General for Tax Administration
 Fiscal Year 2012 Annual Audit Plan and addresses the major management challenge of Human
 Capital.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.




 1
  On July 1, 2012, the Modernization and Information Technology Services organization changed its name to the
 Information Technology organization.
                      The Information Technology Organization Needs to Implement a
                        Competency Database to Efficiently Manage Its Workforce




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Information Technology Organization Implemented a Process to
          Identify the Human Capital Resources Needed for High Priority
          Projects .......................................................................................................... Page 4
          A Competency Database Will Help Management Effectively
          and Efficiently Manage Employees’ Skills................................................... Page 7
                     Recommendations 1 and 2: .............................................. Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Glossary of Terms ................................................................ Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 18
        The Information Technology Organization Needs to Implement a
          Competency Database to Efficiently Manage Its Workforce




                       Abbreviations

FTE              Full-Time Equivalent
FY               Fiscal Year
HCAAF            Human Capital Assessment and Accountability Framework
HCMB             Human Capital Management Branch
IRS              Internal Revenue Service
IT               Information Technology
                  The Information Technology Organization Needs to Implement a
                    Competency Database to Efficiently Manage Its Workforce




                                           Background

The Human Capital Assessment and Accountability Framework (HCAAF) identifies five human
capital systems that together provide a consistent, comprehensive representation of human
capital management for the Federal Government. The HCAAF links human capital management
to the merit system principles and other civil service laws, rules, and regulations. The
establishment of the HCAAF fulfills the Office of Personnel Management Chief Human Capital
Officers Act of 20021 to design systems and set standards, including appropriate metrics, for
assessing the management of human capital by Federal agencies.2
One of the components identified by the HCAAF is Talent Management. Talent Management
focuses on agencies having quality people with the appropriate competencies in mission-critical
activities. Talent Management addresses competency gaps, particularly in mission-critical
occupations, by implementing and maintaining programs to attract, acquire, promote, and retain
quality talent. This is accomplished through workforce planning.
Workforce planning is a systematic process for identifying the human resources required to meet
an agency’s mission and goals, and developing strategies to meet those requirements. According
to the Office of Personnel Management,3 an effective workforce plan includes identifying the
human capital required to meet organizational goals, conducting analysis to identify competency
gaps, developing strategies to address human capital needs and close competency gaps, and
ensuring the organization is appropriately structured. An agency should approach workforce
planning strategically and in an explicit, documented manner. The workforce plan should link
directly to the agency’s strategic and annual performance plans and be used to make decisions
about structuring and deploying the workforce. One key element of workforce planning requires
a workload analysis to determine the size of the workforce needed to meet organizational goals
and to identify gaps between current and future workforce needs before the new budget
execution cycle.
The Internal Revenue Service (IRS) Information Technology (IT) organization4 is striving to
achieve the objective to “make the IRS the best place to work in government,” but managing the
drivers of change becomes a workforce planning challenge due to the following factors:



1
  5 U.S.C 1103 (c) and implemented under subpart b of 5 CFR part 250.
2
  See Appendix IV for a glossary of terms.
3
  The Office of Personnel Management Human Capital Assessment and Accountability Framework Resource
Center – Workforce Planning (Strategic Alignment System), dated September 2005.
4
  On July 1, 2012, the Modernization and Information Technology Services organization changed its name to
the IT organization.
                                                                                                        Page 1
               The Information Technology Organization Needs to Implement a
                 Competency Database to Efficiently Manage Its Workforce



      Ability to compete as an employer in the external marketplace, as well as improve upon
       hiring goals and processes.
      Continued improvement in tracking and forecasting workforce needs and changes.
      Continued improvement of employee engagement, and identifying and developing its
       future leaders of tomorrow.
      Ability to measure and respond to the results of its human resource plans and processes.
The IRS IT organization’s Human Capital Management Branch (HCMB) plans and manages
human capital programs supporting the organization and consists of the following four sections:
Performance, Labor Relations, and Reorganization; Transition Services; Hiring and Workforce
Planning; and Workforce Reporting. The Hiring and Workforce Planning section assists
customers in the formulation and execution of strategic recruitment and retention programs, and
provides for the planning and execution of a workforce planning program that provides key data
and trending relative to hiring, attrition, workforce migration, and other workforce demand
changes. The Workforce Reporting section serves as the consultant for workforce planning by
providing advice, assistance, and tools to help management identify and address critical
workforce competency and skills needs. The Embedded Human Resources Branch, within the
Hiring and Workforce Planning section, assists with the execution of the recruitment and
workforce strategies developed to address critical competency and skills gaps identified through
extensive workforce analyses.
The IRS IT organization’s Strategy and Planning function collaborates with IRS IT organization
leadership to provide policy, direction, and administration of essential programs, including
strategy and capital planning, strategic planning and performance measurement, financial
management services, vendor and contract management, requirements and demand management,
and risk management. Additionally, the Strategy and Planning function established a repeatable
IT organization Resource Planning activity that will document the IT organization’s resource
contention issues for IRS senior leadership and outline opportunities available to mitigate
resource contention risk. The first activity identified risks for Fiscal Years (FY) 2011 through
2013.
As of May 2012, the IRS IT organization employed more than 7,200 people and almost
2,000 contractors. Figure 1 illustrates some of the more common positions within the
organization categorized between management and front-line employees.




                                                                                          Page 2
                  The Information Technology Organization Needs to Implement a
                    Competency Database to Efficiently Manage Its Workforce



 Figure 1: Examples of Some Common Positions Within the IRS IT Organization
                                  (count by managers and employees)

                                   Number of Management                 Number of Front-Line
    Position Description                Employees                           Employees
  IT Specialist                                 928                                4,561
  Computer Engineer                              57                                  0
  Project Manager                                 0                                 56
  Program and                                   355                                 356
  Management Analyst
Source: Treasury Inspector General for Tax Administration analysis of the IRS Discovery Directory,
dated May 2012.

This review was performed at the IRS National Headquarters office in Washington D.C., and
New Carrollton, Maryland, during the period November 2011 through July 2012. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                                     Page 3
                The Information Technology Organization Needs to Implement a
                  Competency Database to Efficiently Manage Its Workforce




                                   Results of Review

The Information Technology Organization Implemented a Process to
Identify the Human Capital Resources Needed for High Priority
Projects
The Internal Revenue Manual provides guidance and standards for establishing workforce
planning. Similar to the Office of Personnel Management model, Figure 2 shows four phases of
the IRS Strategic Workforce Planning model.
                   Figure 2: IRS Strategic Workforce Planning Model
                          for Human Resources Management




          Source: Internal Revenue Manual Exhibit 6.251.1-3, dated July 2003.

Phase II, or the Workforce Analysis phase, consists of the following activities:
   1. Supply Analysis  An analysis of IRS demographics and identification of IRS
      employment trends. It provides both descriptive and forecasting databases which
      describe how turnover will affect the workforce in the absence of management action.

                                                                                       Page 4
                 The Information Technology Organization Needs to Implement a
                   Competency Database to Efficiently Manage Its Workforce



    2. Demand Analysis  A forecast of the type of skills, quantity, and location of the workforce
        needed in the organization over the next three to five years. Examples include:
        a) scanning the external environment for trends, issues, and problems that may affect the
        IRS; b) examining internal business trends that may provide additional insight into
        workforce changes; and c) reviewing the IRS business environment and prior year use of
        resources.
    3. Gap Analysis  The identification of future gaps and surpluses within the IRS with
       particular emphasis on gaps in critical skills and in the identification of “at risk”
       occupations. During this step, IRS management will address:
               The types of positions that need to be filled.
               Whether training or re-training can help.
               Whether contractors can help.
               Whether to hire new employees.
    4. Strategy Development – The development of potential strategies that resolve issues
       surfaced during the analysis of demand and supply data (gaps, surpluses, critical skills
       issues, and “at risk” occupations).
To address the Supply Analysis activity, the IRS IT organization’s HCMB prepared the IRS IT
organization’s Human Capital Hiring Plan. The Hiring Plan provides workforce data to help IRS
IT organization management understand more about the composition of its workforce supply; to
identify and track patterns of migration, attrition, and hiring; and to gather information about the
external environment so the IRS IT organization can better understand the markets in which it
competes for labor. For example, the IRS IT organization analyzed its workforce distribution
and identified that 64 percent of the workforce is concentrated among five cities. Using this
information, the HCMB uses various research tools to obtain demographic information on the
educational background of individuals living in these five cities, identify average salaries,
consider the local unemployment rate, and identify its top job competitors in the area. Having
this kind of environmental information allows the IRS IT organization to understand gains,
losses, and how to attract and retain talent.
In a prior Treasury Inspector General for Tax Administration report,5 we recommended that the
Chief Information Officer support the Director, Management Services, to work with offices
throughout the IRS IT organization to identify the human capital demand for existing and future
operations. In response to this recommendation, management implemented a process in
August 2010 to identify the risks for FYs 2011 through 2013. On December 28, 2010, IRS IT

5
 Treasury Inspector General for Tax Administration, Ref. No. 2003-20-209, The Modernization, Information
Technology and Security Services Organization Needs to Take Further Action to Complete Its Human Capital
Strategy pp. 4 - 6 (Sept. 2003).
                                                                                                      Page 5
                    The Information Technology Organization Needs to Implement a
                      Competency Database to Efficiently Manage Its Workforce



management closed the recommendation stating it conducted an extensive study to determine
any human resource contention risks related to its staffing demand forecasts and developed
mitigation strategies for areas of risk as appropriate. Management adopted this study (hereafter
referred to as the Resource Contention Process) and repeated the process several times
throughout FY 2011 (December 2010, February 2011, and June 2011).
According to IRS IT organization management, the Chief Technology Officer requested an
enterprise-wide look at the IRS IT organization’s human capital to ensure it had the workforce
skills and quality needed to deliver priority projects, especially for FY 2012. The Business
Performance Review document further described the purpose of the Resource Contention
Process as understanding resource contention risk for priority work through FY 2013 and
developing and monitoring plans to mitigate the risks. IRS IT organization management stated
that addressing the staffing demands through the Resource Contention Process provided each
IRS IT organization an opportunity to review its program priorities across the IRS and address
staffing concerns. The Resource Contention Process data collection instruments provided each
Associate Chief Information Officer requested information, such as:
          The positions and/or skills needed, e.g., testers or programmers.
          The anticipated quarter of the Full-Time Equivalents (FTE) need.
          The name of the project needing the FTEs, including the fiscal year.
          The gap between the available and needed FTEs.
          The mitigation strategy or how the skill-set needs for a specific project will be filled.
           Available strategies include: 1) accepting the risk;6 2) training; 3) hiring; 4) reducing
           project scope, time, or cost; or 5) using nonlabor strategies, i.e., hiring contractors.
IRS IT organization management completed its last Resource Contention Process data call to
identify resource gaps in June 2011 and reported a reduction in the resource contention risk
(of 281 FTEs) from 565 FTEs in the first quarter of FY 2011 to 284 FTEs by the third quarter of
FY 2011. Hiring accounted for the largest proposed mitigation to assist with reducing the
resource contention risk. The next highest proposed mitigation strategy used by IRS IT
organization management was risk acceptance. IRS IT organization management acknowledges
the importance of monitoring the mitigation strategy to ensure the total numbers mitigated by
“risk acceptance” did not pose a greater enterprise-wide risk to completing other priority work.
Further, IRS IT organization management explained it evaluated the success of identifying the
right people to fill the skills gaps based on the completion of projects requiring the skillset. If
the mitigation strategy was not successful, then the skills gap would remain.




6
    Accepting risk means the skill-set gap can be managed with minimal project impact.
                                                                                                 Page 6
                  The Information Technology Organization Needs to Implement a
                    Competency Database to Efficiently Manage Its Workforce



Completing the Resource Contention Process helped IRS IT organization management mitigate
its resource contention risk relating to its priority work and ensured delivery of FYs 2011 and
2012 projects. During our audit, IRS IT organization management advised us of plans to evolve
and simplify the Resource Contention Process. The simplified process includes reviewing the
processes and technologies that could reduce human capital resource needs.

A Competency Database Will Help Management Effectively and
Efficiently Manage Employees’ Skills
Although the IRS IT organization has a process for identifying its resource needs and gaps for
completing its priority work, the process primarily relies on management’s knowledge and
judgment about each individual’s skills and does not consider resource needs for other
mission-related work. While there are some automated personnel systems that provide IRS IT
organization management with information about its employees, e.g., certifications obtained,
educational holdings, etc., there currently is not a system within the IRS IT organization that
provides information about skills and competencies associated with the various occupations.
Without a competency database, IRS IT organization management cannot efficiently and
effectively manage the skills of the workforce.
According to an article written by Forrester Research, Inc.,7
    IT departments tend to focus too much attention on technology and processes and overlook
    their most valuable asset — their people. When managed properly, IT people will continue
    to grow into the skills and roles that fit the current and future needs of the organization. If
    poorly managed, the IT recruiting staff will be among the busiest in the company, and its
    reputation will suffer.
Skills management helps to ensure retention of the people with the right skills. Forrester
Research, Inc. defines skills management as, “The process of matching the current and future
demand for workforce skills by forecasting the talents required and crafting suitable recruiting,
training, mentoring, and staffing contingency efforts.”
One of the first steps suggested by Forrester Research, Inc. is completion of a skills catalog,
i.e., a list of the key skills needed by the organization and the roles that require them. Also,
because roles are filled by people with varying proficiency levels, it is important for the skills
catalog to provide information regarding the characteristics that differentiate the proficiency
levels for each skill. The skills catalog provides the basis for measuring the “supply” of the key
skills within the organization.



7
 Phil Murphy and Alex Cullen, Skills Assessment – A 21st Century Imperative for CIOs, Forrester Research, Inc.,
Sept. 13, 2007, at 3.
                                                                                                          Page 7
               The Information Technology Organization Needs to Implement a
                 Competency Database to Efficiently Manage Its Workforce



The IRS IT organization uses a tool called the Leadership Succession Review to assist with
identifying its organizational “bench strength” and recruitment and training needs for leadership
positions. The assessment tool, completed by both the individual and the individual’s manager,
addresses four leadership competencies and 13 supporting behaviors. Once the assessment is
completed, the individual has a one-on-one discussion with his or her manager to identify any
leadership competency gaps and ideas for further development. The IT organization also uses
the results from these assessments to identify candidates for IRS leadership training courses.
The Leadership Succession Review tool helps the IRS IT organization with succession planning
for its workforce leadership talent only. It does not help with identifying technical skills and
competencies needed by the workforce to deliver its work.
We analyzed the As-Built Architecture, a data file which provides information about the
computer programming languages associated with the various IRS applications, to further
illustrate the importance of why the IRS IT organization should use a skills catalog and
competency assessment for its technical skills. This file identified 395 IRS applications using
120 different computer programming languages. Figure 3 provides a sampling of applications
that affect taxpayer accounts and the associated programming languages used to operate the
application.




                                                                                           Page 8
                 The Information Technology Organization Needs to Implement a
                   Competency Database to Efficiently Manage Its Workforce



            Figure 3: Applications That Affect Taxpayer Accounts and the
                   Programming Languages Used to Operate Them

       Application Name                       Application Definition                Programming Languages
 Accounts Management System        A system that allows users to update              1.   JAVA
                                   taxpayer accounts, view history and               2.   JAVA Script
                                   comments from other systems, and access a
                                                                                     3.   JAVA Server Pages
                                   variety of case processing tools without
                                   leaving the Accounts Management System.           4.   SQL
                                   The Wage and Investment Division owns             5.   XML
                                   this system.
 Automated Collection System       A telephone contact system through which          1.   DYLAKOR
                                   telephone assistors collect unpaid taxes and      2.   IBM ALC
                                   secure tax returns from delinquent taxpayers
                                                                                     3.   IBM COBOL
                                   who have not complied with previous
                                   notices. The Small Business/Self-Employed         4.   SQL
                                   Division owns this system.
 Criminal Investigation            A database that tracks the status and progress    1.   ASP.NET
 Management Information            of criminal investigations and the time           2.   HTML
 System                            expended by special agents. Criminal
                                                                                     3.   JAVA Script
                                   Investigation owns this system.
                                                                                     4.   TRANSACT SQL
                                                                                     5.   VB.NET
                                                                                     6.   XML
 Automated Underreporter           A system that generates cases to the IRS          1.   COBOL
                                   campuses by matching information returns,         2.   Oracle Forms
                                   i.e., Forms 1099 series, Forms W-2, Wage
                                                                                     3.   Oracle PL-SQL
                                   and Tax Statement, against data reported on
                                   individual tax returns. The Wage and              4.   Oracle Reports
                                   Investment Division owns this system.             5.   Pro*C
                                                                                     6.   SQL
 Modernized E-File                 A system that develops the modernized,            1.   Business Objects
                                   web-based platform for filing approximately       2.   HTML
                                   330 IRS forms electronically. The Wage and
                                                                                     3.   JAVA
                                   Investment Division owns this system.
                                                                                     4.   SQL
                                                                                     5.   XML
                                                                                     6.   XSL
Source: IRS As-Built Architecture website.

Figure 3 only identifies a sampling of the programming languages that some IRS IT organization
employees need to be proficient in. When considering the IRS IT organization consists of more
than 7,200 employees and comprises seven different program offices assigned to support the
IRS’s business and functional needs, having a competency database in place would help IRS IT

                                                                                                       Page 9
                The Information Technology Organization Needs to Implement a
                  Competency Database to Efficiently Manage Its Workforce



organization management effectively manage the skills of the employee workforce. Having such
a tool would also make it easier for IRS IT organization management to ensure the technical
training it provides helps address a skills gap or increases a skills proficiency level. However,
one IT executive expressed an opinion that managers are already familiar with the skills of their
employees and, therefore, are not supportive of implementing such a tool.
During our review, the IRS IT organization’s HCMB provided us with its FY 2012 through
FY 2014 human capital action items. One of the items noted in the plan included researching a
skills inventory database for future use within the IRS IT organization; however, the action item
was marked completed as of June 2011. When we inquired about documentation showing the
results of its research, HCMB management could not locate any documentation. Instead, they
offered a written explanation for the closure of the action item due to the pending results of an
initiative undertaken by the IRS Human Capital Office.
We subsequently contacted the IRS Human Capital Office to learn about the status of its
competency database initiative called the Assess 4 Success (this is an IRS-wide initiative for
identifying and assessing core technical competencies using the Enterprise Learning
Management System/Plateau Talent Management System). Representatives from the Human
Capital Office advised us that they completed the pilot program with the Appeals organization in
September 2010. The results of the pilot program were shared with members of the Human
Capital Board (of which the IT organization is a member) in February 2011. Some of the
reported successes include:
      Systemically identifying skills gap and creating a skills development plan.
      Providing a link between technical competencies and course offerings for consideration
       by the manager.
      Separate assessments by position and grade level.
      Immediate results provided to managers (versus a prior manual compilation process
       which took months to complete.)
The IRS Human Capital Office has been actively marketing implementation of this tool to the
other IRS business units. During an April 2012 meeting with the IRS IT organization’s HCMB,
we were advised the HCMB recently learned the Assess 4 Success pilot had been completed.
However, documentation we received from the IRS Human Capital Office revealed that it had an
ongoing relationship with the IRS IT organization’s Learning and Education Branch regarding
the Assess 4 Success tool dating back to December 2010.
In June 2012, the IRS IT organization’s Learning and Education Branch announced to
management and employees that a training assessment for FY 2013 would need to be completed.
The announcement mentioned the ease of completing the assessment by following these simple
steps: 1) identify your skills gap, 2) prioritize training needs, and 3) consider how to apply skills
on the job. Because IRS IT organization management does not have a system for capturing the
                                                                                             Page 10
                The Information Technology Organization Needs to Implement a
                  Competency Database to Efficiently Manage Its Workforce



skills and proficiency levels associated with the various roles, responsibilities, and occupations,
employees will need to self-identify their skills gaps and training which may or may not align
with what is needed to accomplish program goals.
Because the IRS Human Capital Office developed, tested, and successfully implemented an
automated tool that would help with assessing skills competencies and readily link that
information with training, we believe IRS IT organization management should implement the
Assess 4 Success tool to help with its overall skills management. The IRS IT organization will
benefit from using the automated assessment tool because it will reduce the manager’s burden, it
is a cost-efficient means for identifying gaps, and it allows for quick and easy access to
employee data for development and training purposes.

Recommendations
The Chief Technology Officer should:
Recommendation 1: Develop an inventory list of the key (or important) skills needed for
each IRS IT organization position and differentiate the skills by proficiency level.
       Management’s Response: The IRS agreed with the recommendation and is
       currently in the process of developing an IT Workforce Tool that will gather technical
       competencies, skills, and areas of expertise, with proficiency-level ratings from the
       results of each employee self-assessment. The initial pilot is scheduled for October 2012.
Recommendation 2: Implement a repeatable process for assessing employees’ skills. IRS IT
organization management should consider using the Assess 4 Success process and tools
developed by the IRS Human Capital Office.
       Management’s Response: The IRS agreed with the recommendation stating its IT
       Workforce Tool will require employee self-assessments and ongoing gap analysis to meet
       its strategic planning objectives. Although the IRS considered the Assess 4 Success tool,
       it lacked some assessment information and analysis the new system will offer. This new
       IT Workforce Tool, coupled with the IT Integrated Release Plan, will provide expanded
       skills information by critical program areas related to the future demand and detailed gap
       analysis assessments.




                                                                                            Page 11
                     The Information Technology Organization Needs to Implement a
                       Competency Database to Efficiently Manage Its Workforce



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the IRS IT organization’s workforce planning1 efforts to
ensure that it has the human capital needed to deliver IT services and solutions that drive
effective tax administration. To accomplish our objective, we:
I.         Assessed actions taken by the IRS IT organization to determine the competencies
           (capabilities) needed by the current and future workforce to deliver IT services and
           solutions for existing systems and future projects.
           A. Interviewed personnel from the HCMB and Strategy and Planning function, and
              reviewed documentation to determine the process used to identify the competencies
              (capabilities) and composition (demographics) of the current workforce.
           B. Interviewed personnel, reviewed documentation, and evaluated processes used by the
              IRS IT organization to identify and document the competencies needed to deliver
              future IT services and solutions.
           C. Evaluated how the IRS IT organization identified the demographics associated with
              its current workforce.
II.        Assessed actions taken by the IRS IT organization to determine the size of the workforce
           needed to deliver the IT services and solutions used to meet its goals and to identify gaps
           between current and future workforce needs. This included interviewing Strategy and
           Planning function personnel to understand how they identified and monitored resource
           contention risks as it related to the Resource Contention Process.
III.       Assessed actions taken by the IRS IT organization to analyze and develop a plan of
           action to address the identified competency gaps.
           A. Interviewed Strategy and Planning function and HCMB personnel, and reviewed
              supporting documentation to determine how select mitigation strategies were
              implemented.
           B. Reviewed the resource contention data provided by the Strategy and Planning
              function to identify the number of times the different risk mitigation strategies were
              used.




1
    See Appendix IV for a glossary of terms.
                                                                                              Page 12
               The Information Technology Organization Needs to Implement a
                 Competency Database to Efficiently Manage Its Workforce



       C. Identified how the HCMB and Strategy and Planning function monitored and
          measured their actions to address which skills gaps were successful.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Office of Personnel Management’s
HCAAF, which includes the policies for workforce planning. We evaluated these controls by
interviewing IRS IT organization management from the Strategy and Planning function and the
HCMB, reviewing policies and procedures outlined in the Internal Revenue Manual, and
reviewing relevant supporting documentation.




                                                                                       Page 13
               The Information Technology Organization Needs to Implement a
                 Competency Database to Efficiently Manage Its Workforce



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny R. Verneuille, Director
Diana M. Tengesdal, Audit Manager
Tina Wong, Lead Auditor
Charles O. Ekunwe, Senior Auditor
Chinita M. Coates, Auditor
Sarah K. Shelton, Program Analyst




                                                                                     Page 14
              The Information Technology Organization Needs to Implement a
                Competency Database to Efficiently Manage Its Workforce



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                             Page 15
                 The Information Technology Organization Needs to Implement a
                   Competency Database to Efficiently Manage Its Workforce



                                                                          Appendix IV

                             Glossary of Terms

                   Term                                    Definition
As-Built Architecture                 Provides the relationships between elements within
                                      each domain linking applications to the technology
                                      platforms that host the applications.
Assess 4 Success                      A process using automated tools for assessing
                                      competencies associated with identified occupations,
                                      identifying gaps, and creating a plan to close the
                                      gaps. The assessment tool is completed by both the
                                      employee and the employee’s manager.
Attrition                             The loss of employees due to retirement, separation,
                                      etc.
Bench Strength                        The competence and number of employees ready to
                                      fill vacant leadership and other positions.
Campus                                The data processing arm of the IRS. The campuses
                                      process paper and electronic submissions, correct
                                      errors, and forward data to the Computing Centers
                                      for analysis and posting to taxpayer accounts.
Competency                            An observable, measurable set of skills, knowledge,
                                      abilities, behaviors, and other characteristics an
                                      individual needs to successfully perform work roles
                                      or occupational functions. Competencies are
                                      typically required at different levels of proficiency
                                      depending on the specific work role or occupational
                                      function. Competencies can help ensure individual
                                      and team performance aligns with the organization’s
                                      mission and strategic direction.
Full-Time Equivalent                  A measure of labor hours in which one FTE is equal
                                      to eight hours multiplied by the number of
                                      compensable days in a particular fiscal year.



                                                                                   Page 16
                The Information Technology Organization Needs to Implement a
                  Competency Database to Efficiently Manage Its Workforce




Human Capital                        Defined by the National Academy of Public
                                     Administration as the “identification of
                                     competencies and skills needed to realize an
                                     organization’s mission and operating goals.”
                                     According to the Government Accountability Office,
                                     acquiring and developing staffs whose size and
                                     skills meet agency needs is one of the most
                                     pervasive challenges now facing the Federal
                                     Government.
Migration                            When employees move either from an IRS IT
                                     organization to another IRS business unit or move
                                     within the IT organization.
Resource Contention                  Occurs when multiple projects have the same
                                     skill-set needs, but there are not enough resources
                                     available to fill the total skill-set needs.
Resource Contention Process          An extensive study to determine any resource
                                     contention risks related to the organization’s staffing
                                     demand forecasts.
Workforce Planning                   A process whereby a strategic plan is developed
                                     which sets the organization’s objectives for
                                     competency development and workforce activities.
                                     These objectives are supported by workforce
                                     allocation with each organizational unit to satisfy
                                     both unit needs and strategic objectives. The
                                     workforce planning process fundamentally involves
                                     identifying the gap between the existing workforce
                                     supply and the future workforce competency needs
                                     and position requirements based on projected
                                     workload and strategic objectives. The plan may
                                     also enumerate or recommend closing gap strategies
                                     and/or options for the Senior Leadership Team.




                                                                                    Page 17
   The Information Technology Organization Needs to Implement a
     Competency Database to Efficiently Manage Its Workforce



                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 18
The Information Technology Organization Needs to Implement a
  Competency Database to Efficiently Manage Its Workforce




                                                       Page 19
